Report No. D-2007-120   August 29, 2007




    U.S. Pacific Command Headquarters
    Government Purchase Card Controls
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AO                    Approving Official
APC                   Agency Program Coordinator
CJCSI                 Chairman of the Joint Chiefs of Staff Instruction
FAR                   Federal Acquisition Regulation
FISC                  Fleet and Industrial Supply Center
GPC                   Government Purchase Card
IOP                   Internal Operating Procedure
ORF                   Official Representation Funds
PACOM                 U.S. Pacific Command Headquarters
                Department of Defense Office of Inspector General
Report No. D-2007-120                                                    August 29, 2007
   (Project No. D2007-D000FJ-0014.000)

       U.S. Pacific Command Headquarters Government Purchase
                           Card Controls

                                  Executive Summary

Who Should Read This Report and Why? DoD civilians and military personnel who
are authorized to use a Government purchase card or supervise any aspect of the
Government Purchase Card Program should read this report. This report discusses the
internal controls and the management of the Government Purchase Card program at the
U. S. Pacific Command Headquarters (PACOM).

Background. Title 10, United States Code Section 2784 requires periodic audits to
identify potentially fraudulent, improper, and abusive uses of purchase cards; any
patterns of improper cardholder transactions; and categories of purchases that should be
made by means other than purchase cards.

During a 1-year period ending May 2006, PACOM Headquarters incurred 2,086 purchase
card transactions valued at over $3.2 million. We judgmentally selected 348 transactions
completed during that period for review. These consisted of 298 purchase card
transactions citing multiple funding sources and 50 purchase card transactions where
PACOM personnel cited Joint Chiefs of Staff funds, known as “Official Representation
Funds.” The value of all 348 transactions was $1,268,600.

Results. For most of the purchase card transactions we examined, PACOM personnel
complied with regulations. However, there were instances of noncompliance. Of the
298 transactions we sampled, 4 purchases exceeded the purchase card threshold,
2 included excessive shipping costs, and 1 did not have adequate supporting
documentation. Additionally, the approving official did not properly review 37 of the
transactions prior to approving them, and did not properly screen sources prior to
completing 22 transactions. The agency program coordinator and approving officials
must take action to communicate and enforce existing guidance to minimize the potential
for fraud, waste and abuse. The agency program coordinator also needs to reinforce
training in the Business Operations Branch to improve the performance of personnel (see
finding A).

For most of the items we sampled, PACOM did not follow the Chairman of the Joint
Chiefs of Staff Instruction and their own guidance for use of Official Representation
Funds. PACOM personnel made 46 of the 50 purchases we examined prior to verifying
the availability of funds. For 21 of the 50 purchases, PACOM personnel incorrectly paid
excise taxes. Additionally, PACOM personnel did not provide required documentation
to fully support the Official Representation Funds purchases we reviewed. Although
they were not a part of our sample, during the testing of the Official Representation
Funds process, we observed that PACOM inappropriately retained 863 gift items (valued
at $16,459) in inventory. PACOM needs to improve its controls over the use of Official
Representation Funds to minimize the risk of improper use of those funds (see finding B).

Management Comments. Comments from the Commander, U.S. Pacific Command
were responsive. The Commander concurred with all recommendations. Therefore, no
further comments are required.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                i

Background                                                      1

Objectives                                                      1

Review of Internal Controls                                     2

Findings
     A. Use of and Controls over Government Purchase Cards      3
     B. Controlling Official Representation Fund Transactions   8

Appendixes
     A. Scope and Methodology                                   16
     B. Prior Coverage                                          17
     C. Report Distribution                                     19

Management Comments
     U.S. Pacific Command Comments                              21
Background
    Title 10, United States Code, Section 2784 requires the DoD Office of Inspector
    General to perform periodic audits of the Government Purchase Card Program to
    identify:

           (A) potentially fraudulent, improper, and abusive use of purchase cards;

           (B) any patterns of improper card holder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than
           purchase card in order to better aggregate purchases and obtain lower
           prices.

    Use of the Government Purchase Card. According to Federal Acquisition
    Regulation (FAR) 13.301 “Government-wide Commercial Purchase Card,” the
    Government Purchase Card (GPC) is the preferred method to purchase and pay
    for “micro-purchases.” Use of the purchase card as a procurement and payment
    tool for micro-purchases is explained in FAR 13.2, “Actions At or Below the
    Micro-Purchase Threshold.” A micro-purchase is defined as an acquisition of
    supplies or services in which the aggregate amount does not exceed $2,500,
    except for construction, where the threshold is $2,000.

    U.S. Pacific Command. On January 1, 1947, the DoD established the Pacific
    Command Headquarters (PACOM) as a unified command representing all three
    Military Departments in the Pacific Theatre. The Command employs about
    300,000 military personnel in the Army, Navy, Air Force, and Marine Corps. The
    headquarters for PACOM is located at Camp H.M. Smith, Hawaii. The
    headquarters staff consists of about 530 Army, Navy, Air Force, and Marine
    Corps officers and enlisted personnel, plus an additional 110 civilian employees.

    During a 1-year period ending May 2006, PACOM Headquarters incurred 2,086
    purchase card transactions valued at over $3.2 million. We judgmentally selected
    348 transactions completed during that period for review. These 348 transactions
    consisted of 298 purchase card transactions citing multiple funding sources and
    50 purchase card transactions where PACOM personnel cited Joint Chiefs of Staff
    funds, known as “Official Representation Funds.” The value of all 348
    transactions was $1,268,600.


Objectives
    Our audit objective was to assess whether U.S. Pacific Command Headquarters
    use of the Government Purchase Card is in compliance with applicable laws and
    regulations. We also reviewed internal controls over use of the purchase card.
    See Appendix A for a discussion of the audit scope and methodology.


                                        1
Review of Internal Controls
     We identified internal control weaknesses for PACOM as defined by DoD
     Instruction 5010.40, “Managers Internal Control Program Procedures,” January 4,
     2006. PACOM did not have adequate internal controls over the use of the
     Government Purchase Card program and its Official Representation Funds.
     Implementing Recommendations A.1.a., A.1.b., and A.2. of finding A and
     Recommendations B.1.a, B.1.b., B.1.c., B.1.d, B.1.e., B.2., B.3.a., and B.3.b. of
     finding B will improve the overall use of the Government Purchase Cards. A
     copy of the report will be provided to the senior official responsible for internal
     control at PACOM.




                                          2
                A. Use of and Controls over Government
                Purchase Cards
                For most of the purchase card transactions we examined, PACOM
                personnel complied with applicable regulations. However, there were
                instances of noncompliance. Of the 298 transactions we sampled, 4
                purchases exceeded the purchase card threshold, 2 included excessive
                shipping costs, and 1 did not have adequate supporting documentation.
                Additionally, the approving official did not properly review 37 of the
                transactions prior to certifying them for payment. Also, the cardholder did
                not properly screen sources prior to completing 22 of the transactions.
                The instances of noncompliance occurred because staff shortages did not
                allow proper segregation of duties and PACOM personnel did not
                consistently follow Navy guidance or enforce internal controls governing
                use of the cards. Finally, available staff did not always have updated
                guidance to adequately perform their duties. Unless controls are improved
                and training is reinforced, PACOM risks abuse in the use of its purchase
                cards.


Navy Guidance for the Government Purchase Card Program
         Department of the “Navy e-Business Operations Office Instruction 4200.1A,”
         September 2003 (“e-Bus Instruction”) provides guidance on the use of the GPC.
         Chapter 1, paragraph 4 of the instruction states that the GPC may be used to
         purchase authorized supplies, equipment, and nonpersonal services up to the
         micro-purchase threshold of $2,500. Purchases over the $2,500 threshold may be
         made using other contracting methods. Also, the GPC cannot be used in making
         recurrent purchases that circumvent the $2,500 threshold. Chapter 3,
         paragraph 7a of the e-Bus Instruction requires a distinct segregation of duties for
         purchase, acceptance, and payment on all contract actions. PACOM establishes
         internal controls through its general policies and procedures for program
         management, which include review of the purchase card program. Chapter 3,
         paragraph 4 of the e-Bus Instruction states that supporting documentation for
         purchases must be retained by the cardholder and approving official for 3 years.

         Chapter 2, paragraph 4 of the e-Bus Instruction also states that the purchase card
         approving official (AO) is responsible for individual cardholder oversight and
         ensuring that internal controls are implemented. These controls include testing
         purchase validity and regulation compliance. Chapter 3, paragraph 5b states that
         each AO must perform monthly verification of GPC transactions and account
         statement reconciliations. In addition, all documentation should be properly
         managed and maintained.

         Chapter 2, paragraph 3 of the e-Bus Instruction states that the agency program
         coordinator (APC) is responsible for the overall implementation of the purchase
         card program. Responsibilities include providing mandatory purchase card
         training, ensuring that cardholders are capable of performing their duties, and
                                              3
     issuing purchase cards only to authorized personnel. Also, the APC is required to
     perform regularly scheduled reviews, at least quarterly, on command AO and
     purchase card accounts to verify that all account profile information is accurate.
     The APC is required to take corrective action when a review reveals misuse or
     abuse of the GPC program or noncompliance with applicable guidance.


Purchase Card Transactions Reviewed
     We judgmentally selected 298 purchase card transactions for review. PACOM
     made a majority of the procurements in compliance with applicable regulations.
     However, the audit identified seven transaction irregularities totaling $135,752.
     These irregularities consisted of transactions that exceeded the purchase card
     threshold, had excessive shipping costs, and had missing documentation. The
     following table shows a breakdown of the number and types of transaction
     irregularities.


                 Table 1. US PACOM GPC Transaction Irregularities
                      Number of
                                        Amount                      Description
                     Transactions
 Purchases
                                                      The purchases were beyond the $2,500
 Exceeding                4              $134,999
                                                      Threshold.
 Threshold
 Excessive                                            Shipping for pens was 40% of the total
                          2                   $125
 Shipping                                             cost of the pens.
 Missing or
                                                      One transaction was not supported with
 Insufficient             1                   $628
                                                      documentation.
 Documentation
  Total                   7              $135,752



     Purchases Exceeding Threshold. PACOM did not have the authority to use the
     GPC to pay for services not on contract that exceeded $2,500 annually. The
     Commanding Officer, Fleet and Industrial Supply Center (FISC), San Diego
     reduced the PACOM contracting authority from $100,000 to $2,500 by issuing a
     message addressed to PACOM in September 2004. However, the GPC was used
     to pay $134,999 on four transactions that exceeded $2,500 in services in a year.
     Here are two examples:

             •   A cardholder paid $40,062 for telephone maintenance service. The
                 cardholder indicated he was not aware that the transaction exceeded
                 purchase cardholder authority at the time of the purchase. When the
                 maintenance service was subsequently renewed, PACOM used a
                 contract to secure the service.




                                          4
                   •    A cardholder purchased 2 months of service for organizational design
                        and strategic planning in October and November 2005, totaling
                        $92,072. The cardholder made the purchase to “bridge” 1 a contract
                        that was expiring in September 2005. The original contract had not
                        been extended by the contracting authority at FISC Pearl Harbor. The
                        cardholder believed he had the authority to procure services listed on
                        the General Services Administration schedule for as much as $100,000
                        using the purchase card. During the 2 months of the bridge contract,
                        the cardholder requested that FISC Pearl Harbor issue a contract to
                        cover the service. At the end of November 2005, FISC awarded a
                        contract for the remaining 10 months of FY 2006. The $92,072
                        purchase on the card exceeded the $2,500 purchase limit, and therefore
                        the bridging of the expiring contract was an improper use of the
                        purchase card.

          The APC for the PACOM purchase card program indicated that she was unaware
          that the September 2004 directive had limited PACOM’s contracting authority to
          $2,500. The APC took appropriate action during the audit and issued a
          notification to all PACOM cardholders of the breach of authority, as well as a
          warning not to exceed their $2,500 contracting authority.

          Excessive Shipping Costs. Enclosure 1, paragraph 5 of the e-Bus Instruction
          4200.1A does not allow the purchase of goods or services that exceed the
          minimum requirements to satisfy and support the Government. For two sample
          transactions, the GPC was used to order writing pens for the PACOM Command.
          The cardholder used second-day air shipping as the method of delivery. The cost
          of the pens was $125, of which more than 40 percent was for shipping. The use
          of second-day air shipping was excessive and not an appropriate use of
          government funds.

          Purchase Card Documentation. PACOM’s Business Operations Branch
          Internal Operating Procedures (IOP) state that prior to making a purchase card
          transaction, cardholders are required to obtain written approval from an AO
          authorizing the transaction. However, in one instance, the cardholder purchased a
          marker board that cost $628 without prior approval. In addition, the cardholder
          could not provide supporting documentation for the receipt and acceptance of the
          marker board.


Execution of GPC Duties
          Staffing problems contributed to the control issues we noted at PACOM.
          Inadequate staffing levels resulted in the APC not segregating duties and the AO
          not adequately reviewing documentation. In addition, the cardholders failed to
          perform their duties effectively. Of the 298 transactions in the sample,


1
    “Bridging” a contract is a methodology used to continue services until a new contract is awarded.

                                                      5
           37 transactions were not reviewed by the AO and 22 transactions lacked evidence
           of mandatory source screening 2 by the cardholder.

           Extra Duties of the Agency Program Coordinator. Chapter 3, paragraph 7a of
           the e-Bus Instruction 4200.1A requires the segregation of duties for the APC and
           the AO. Due to staffing shortages at the PACOM business office, the APC
           performed the duties of the AO to ensure continuity of operations. The director of
           the business office requested that the Navy provide a waiver of the requirement
           for segregation of duties to give the APC the authority to perform AO
           responsibilities. The Department of the Navy Consolidated Card Program
           Management Division waived the segregation-of-duties requirement three times
           during FYs 2005-2007. As a result of the waivers, the APC was overburdened
           with AO responsibilities.

           Approving Official’s Ability to Review Documentation. Chapter 2,
           paragraph 4d of e-Bus Instruction 4200.1A requires the approving official to
           review all documentation and ensure that each cardholder follows the proper
           procedures when using the GPC. For 37 of the sample transactions, totaling
           $110,416, there was not evidence of any review by the AO. For those 37 items,
           the Business Operations Branch AO did not initial the invoices or certification of
           receipts, which would show official acceptance of the purchases.

           Cardholders Performing Their Duties Efficiently. The IOP establishes the
           roles and responsibilities of all PACOM cardholders. Chapter 1, paragraph 3b of
           the IOP requires cardholders to check for mandatory sources. For 22 transactions,
           the cardholders had not checked for mandatory sources or obtained a waiver from
           using mandatory sources before going to outside vendors. In addition,
           cardholders did not follow other requirements of the IOP when conducting
           purchase card transactions:

                    •   Cardholders did not maintain purchase logs that contained the
                        necessary information to support the use of non-mandatory sources.

                    •   Cardholders indicated that they were unaware of purchase
                        requirements and limitations that they had violated when conducting
                        purchase transactions.

           These cardholder errors resulted in making purchases without the necessary
           screening of vendors. Because the PACOM Business Operations Branch
           performs about 70 percent of all GPC transactions, the APC needs to ensure that
           cardholders have the necessary skills to efficiently perform their duties by
           enforcing the training requirements for purchase cardholders. In addition, the
           APC needs to ensure that cardholders are updated on all changes to purchase
           requirements so that the cardholders are in compliance with current guidance.




2
    Agencies are required to satisfy requirements for supplies and services by reviewing several sources and
    publications.

                                                       6
Summary
     PACOM did not have adequate controls to prevent irregularities in the use of its
     GPC. Cardholders made irregular purchases and did not maintain complete
     supporting documentation. PACOM had inadequate staffing levels, which
     prevented segregation of duties. This situation will continue until staffing in the
     Business Operations Branch is restructured so that the APC and AO duties are
     separate and the cardholders follow guidance already established in the PACOM
     IOP and the e-Business Instruction.


 Recommendations and Management Comments
     A.1. We recommend that the Commander of the Pacific Command
     Headquarters:

            a. Instruct cardholders and approving officials in the proper
     procedures to follow when using the Government Purchase Card, as outlined
     in Department of the Navy e-Business Operations Office Instruction 4200.1A
     and the Business Operations Branch Internal Operating Procedures.

            b. Reinforce training for the Government Purchase Card Program
     and keep cardholders updated on all changes to purchase requirements to
     ensure that cardholders are in compliance with current guidance.

             Commander, U.S. Pacific Command Comments. The Commander,
     U.S. Pacific Command concurred with both recommendations. He stated that
     they will continue to educate all purchase cardholders on the proper procedures
     when using the Government Purchase Card. He further stated that the U.S.
     Pacific command will establish a process to reinforce training and update
     cardholders on all changes to the purchase card program to ensure compliance
     with current guidance.

     A.2. We recommend that the Director of the Pacific Command Business
     Operations Branch maintain proper segregation of duties by having two
     different individuals perform agency program coordinator and approving
     official duties.

             Commander, U.S. Pacific Command Comments. The Commander,
     U.S. Pacific Command concurred with the recommendation. He stated that once
     all positions are filled in the Headquarters Business Operations Branch, they will
     implement the separation of duties of the agency program coordinator and the
     approving official.




                                          7
            B. Controlling Official Representation
               Funds Transactions
            PACOM did not follow guidance for use of Official Representation Funds
            (ORF) for most of the items we sampled. For 46 of the 50 purchases we
            examined, PACOM personnel did not verify the availability of funds prior
            to making the purchase. For 10 of those same purchases, PACOM
            personnel incorrectly paid excise taxes. Furthermore, PACOM personnel
            did not provide required documentation to fully support 21 of the 50 ORF
            purchases. Also, though they were not part of our sample transactions,
            during the testing of the ORF process we observed that PACOM
            inappropriately retained 863 gift items (valued at $16,459) in inventory.
            These conditions occurred because the Command Staff Protocol Office
            and the approving official in the Comptroller’s Office did not properly
            monitor the ORF purchase cardholders. PACOM management needs to
            strengthen ORF purchase controls and improve ORF oversight to
            minimize the potential for improper and questionable use of the ORF.


Guidance on Use of Official Representation Funds
     DoD Directive 7250.13, “Official Representation Funds,” February 17, 2004,
     updated January 12, 2005, establishes policy, assigns responsibilities, and
     prescribes procedures for the use of appropriated funds for ORF. It specifies that
     ORF are to be used to host official receptions, dinners, and similar events, and to
     otherwise extend official courtesies to guests of the U.S. and the DoD for the
     purpose of maintaining the standing and prestige of the U.S. and the DoD. The
     use of ORF is supposed to be monitored closely to ensure that expenditures
     comply with socially accepted morals and that the policy objectives of the U.S.
     and the interest of the U.S. taxpayer jointly are served. Records on the use of
     ORF are supposed to be maintained on a function-by-function basis to provide
     data on how and why these funds were used. It requires the heads of DoD
     Components to budget and account for resources necessary to support their ORF
     requirements. In addition, the heads of DoD Components are to establish
     appropriate internal reporting systems to enable them to perform a continuing
     review of the purposes for which ORF have been used within their respective
     commands.

     Chairman of the Joint Chiefs of Staff Instruction (CJCSI) 7201.01A, “Combatant
     Commanders’ Official Representation Funds,” October 15, 2003, updated
     February 7, 2006, requires the commanding officer (or authorized designee), the
     command protocol officer, the command comptroller, and the command staff
     judge advocate to review the use of ORF to fund an event prior to its occurrence.

     PACOM Instruction 0609.3, “Official Representation Funds,” August 1, 2005,
     requires that each expenditure be reviewed for compliance with this instruction.
     The commanders to whom ORF authority is granted are personally responsible
     for the propriety of each expenditure of ORF. In addition, personnel granted
     authorization may be held personally and financially responsible for any misuse
                                          8
     of ORF. The instruction also provides detailed guidance on the roles and
     responsibilities of the commanding officer, the command comptroller, the
     command staff judge advocate, and the PACOM-authorized approval designee.


Roles and Responsibilities
     Commanding Officer. PACOM Instruction 0609.3, section 5.a. requires that the
     PACOM Commanding Officer be responsible for approving in advance all ORF
     expenditures that exceed $10,000 per event. It further requires that the
     commander is responsible for controlling the use of ORF by reviewing all
     requests for the use of ORF prior to expenditure.

     Comptroller. CJCSI 7201.01A, Appendix A, paragraphs 1 and 2 require that the
     combatant command have a budget for each fiscal year’s ORF requirements and
     allocations to determine and manage ORF use. The combatant command
     comptroller is required to collect ORF requirements and consolidate them into
     one annual plan for approval. After approval, the comptroller uses the plan for
     management of the ORF program. The PACOM Comptroller also establishes the
     ORF policies and procedures. One person within the comptroller’s office serves
     as the AO for all ORF cardholders. The comptroller’s office performs follow-up
     audits of all ORF records, certifies the ORF purchase card bills, maintains the
     accounting records, and provides the PACOM Business Office with copies of the
     ORF purchase card transactions.

     Command Staff Judge Advocate. PACOM’s Judge Advocate validates the
     propriety of expenses for ORF use and provides rulings on expenses not
     specifically addressed in the CJCSI 7201.01A. The judge advocate must validate
     the request for the use of ORF prior to the command comptroller’s fund
     verification.

     Staff Protocol Office. The PACOM Staff Protocol Office provides protocol
     support to PACOM leadership, visitors to the command, action officers, and
     ceremony participants. Cardholders assigned to the protocol office make gift
     purchases on behalf of the commander and maintain records of the recipients.


Verification of ORF Fund Availability
     Documentation for the 50 ORF purchase card transactions in our sample showed
     that 46 of the purchases occurred before the appropriate officials verified the
     availability of ORF funds to pay for the purchase. PACOM Instruction 0609.3,
     Section 11.d.(1)(a) states: “Directorates are required to provide a Request for
     Obligation of ORF [US PACOM Form 7300/1 (0609/3)] prior to arranging a
     function or purchasing a memento.” In addition, DoD Directive 7250.13 states:
     “Fund availability shall be verified before the use of ORF (preferably 10-15 days
     prior to an event).” Also, the CJCSI 7201.01A specifies that the combatant
     commander’s comptroller is to review each request for ORF prior to the


                                         9
          scheduled event to ensure the availability of funds. PACOM did not follow these
          procedures.

          The following table shows the chronological order of ORF funding documents
          where the Commander’s Directorate 3 exceeded its ORF funding authorization:

                               Table 1. ORF Funding Documents
                   Document Number           ORF Remaining Balance        Date of Document
                     J00-H-06-028              $ 49.88                    January 19, 2006
                     J00-H-06-029                  3.73                   January 27, 2006
                     J00-H-06-030              8,919.59                   February 2, 2006
                     J00-H-06-031              7,047.88                   February 27, 2006

          Table 1 shows that ORF funds were added to the Commander’s Directorate
          account by document number J00-H-06-030. However, our review of document
          number J00-H-06-031 disclosed that an additional $1,866.43 was spent between
          January 20, 2006, and January 27, 2006, even though the document was not dated
          until February 27, 2006. Also, the cardholder’s purchase log showed that another
          two purchases of $26.00 and $109.26 were made on January 26, 2006. Therefore,
          including the $46.15 ($49.88 less $3.73), actual ORF expenditures made prior to
          the additional funding authorization were $2,047.84. These transactions resulted
          in a negative $1,997.96 balance ($49.88 less $2,047.84) in the Commander’s
          Directorate ORF account before additional funds were added in February 2006 on
          document number J00-H-06-030.

          We questioned PACOM Comptroller personnel about this negative balance.
          Comptroller personnel stated that as long as excess ORF funds are available in
          another of PACOM’s directorates, funds could be reallocated to cover negative
          balances. Therefore, they believed that an Antideficiency Act violation would not
          occur. Since the transactions occurred during the second quarter of the fiscal year
          and PACOM had not exceeded its overall funding authorization for ORF, we
          agree that this situation would not be considered an Antideficiency Act violation.
          However, failure to verify the availability of funds prior to making expenditures
          can result in a violation. Furthermore, unless PACOM cardholders are required to
          adhere to regulations and verify the availability of ORF funds before making
          purchases, PACOM risks an Antideficiency Act violation should funds not be
          available in another PACOM directorate.


Additional Audit Results
          Our review of the 50 judgmentally-selected ORF purchase card transactions
          showed that 21 of the transactions contained irregularities, to include the purchase
          of items that were not used during the fiscal year they were purchased. The
          review also disclosed improper payment of taxes. The following table shows the
          21 transactions with irregularities.
3
    The Commander’s Directorate is the office directly under the Commander, PACOM and is designated as
    organizational code J00.

                                                   10
                           Table 2. Transactions with Irregularities
  Sample          Transaction Purpose          Transaction                Description of Irregularities
  Number                                        Amount
ORF-01       Purchase of 50 crystal bowls       $2,095.00    Split disbursement exceeding card holder’s single
             for Chief of Defense                            purchase limit of $2,500.00.
             conference.
ORF-02       Purchase of 50 crystal bowls        2,095.00    Split disbursement exceeding card holder’s single
             for Chief of Defense                            purchase limit. See Sample ORF-01.
             conference.
ORF-03       Purchased gift wrap paper and       1,683.95    Paper cutters should not have been purchased using
             designer wrap paper. Also                       ORF because they were equipment assets.
             purchased 2 paper cutters.
ORF-07       Purchased mountable lei.              419.27    Purchase exceeded maximum allowed for gift and
                                                             excise tax paid on purchase.
ORF-09       Purchased 40 tour tickets for         300.00    Only 27 people attended tour. Therefore, there was
             spouses of Chief of Defense                     an overpayment for the event.
             conference.
ORF-12       Purchased plate, vase, and gift       209.22    Gift purchase using FY 06 funds. Gift was never
             wrap items.                                     presented and was still in gift locker.
ORF-13       Purchased Warrior’s Pot.              195.52    Gift purchase using FY 06 funds still in gift locker.
                                                             Excise tax also paid.
ORF-14       Purchased golf putter and             188.37    Paid general excise tax on transaction.
             warrior sword.
ORF-15       Purchased Hawaiian canoe as           187.50    Paid general excise tax on transaction.
             gift for Distinguished Visitor.
ORF-16       Purchased crystal bowl and            152.98    Gift purchase using FY 06 funds. Gift was never
             plate.                                          presented and was still in gift locker.
ORF-22       Purchased Hawaiian etched              64.99    Gift purchase using FY 06 funds. Gift was never
             crystal bowl.                                   presented and was still in gift locker.
ORF-24       Purchased “Island of Oahu”             47.45    Gift purchase using FY 06 funds. Gift was never
             picture.                                        presented and was still in the gift locker.
ORF-25       Purchased gift wrap                    46.02    End of fiscal year purchase. Excise tax was also
                                                             paid.
ORF-26       Purchased warrior axe.                 41.60    Paid general excise tax on transaction.
ORF-27       Purchased gift boxes.                  37.50    Paid general excise tax on transaction.
ORF-29       Purchased gift wrap                    23.43    End of fiscal year purchase.
ORF-30       Purchased glass ornament and           21.98    Gift purchase using FY 06 funds. Gift was never
             hibiscus ornament.                              presented and was still in gift locker.
ORF-31       Purchased 2 leis.                      20.83    Paid general excise tax on transaction.
296          Purchased flowers.                     21.21    Paid general excise tax on transaction.
297          Purchased flowers.                     17.34    Paid general excise tax on transaction.
             Purchase of flowers for               174.45    Used credit card authorized for food purchase only.
298X         distinguished visitor dinner.
Total                                           $8,043.61



         While we found several types of irregularities, the three main types related to
         current year needs, excise tax payments, and split disbursements:

         Current Year Requirements. PACOM Instruction 0609.3, Section 9.c. specifies
         that mementos may not be procured for presentation in future fiscal years. Also,
         both the CJCSI 7201.01A and DoD Directive 7250.13 specify that ORF
         requirements are based on fiscal year use only, which would prohibit the use of

                                                     11
         current year funds to meet future year requirements. Of the 21 transactions with
         irregularities, 9 purchases were made to satisfy anticipated needs in future fiscal
         years.

         Excise Tax Payments. In December 1998, the General Services Administration
         SmartPay Card Program Office issued letters to all states requesting continued
         support for the tax-exempt status of the Government purchase card. The Director
         of Taxation for the State of Hawaii recognized that, according to Section 237-25
         of the Hawaii Revised Statutes, the sale of tangible personal property to the U. S.
         is exempt from the general excise tax. This guidance was not always followed.
         The Hawaiian excise tax was improperly paid on 10 of the purchases reviewed,
         for a total of $46.63.

         Split Disbursements. For 2 sample transactions reviewed, the cardholder
         exceeded the single purchase spending authorization by purchasing 50 crystal
         bowls at a total cost of $4,190. The vendor split the purchase into two equal
         transactions of $2,095 each. The cardholder wrote on the credit card statement, “I
         did not tell Corporate Gifts to split disburse this account.” Had the vendor not
         split the purchase, it would have exceeded the cardholder’s purchase limit of
         $2,500. Consequently, both the cardholder’s assertion and the purchase were
         questionable.


Inventory of Gift Items
         PACOM maintained an excessive inventory of gift items for potential future use.
         As stated previously, PACOM Instruction 0609.3, Section 9.c. states that
         “mementos may not be procured for presentation in future fiscal years.”
         PACOM’s gift locker list identified 863 gift items, valued at nearly $16,460, that
         were being retained in inventory. None of these items were designated to be
         presented to a specific distinguished visitor or other dignitary in the near term.
         PACOM needs to eliminate this excessive inventory of gift items and institute
         procedures to purchase items only when a specific need is identified. If a long
         lead time is required to purchase gifts for an event that will occur during the next
         fiscal year, PACOM should request a waiver from the Chairman of the Joint
         Chiefs of Staff to get permission to use current fiscal year funds.


Required Documentation
         In 21 of the 50 ORF sample transactions we reviewed, the documentation
         associated with ORF purchase obligations lacked some or all of the elements
         required to fully support the expenditure. 4 PACOM Instruction 0609.3 specifies
         that the dates, places, and costs of each event are required to be listed on the
         USPACOM Form 0609/2. PACOM Judge Advocate Office staff agreed with us
         that more details should be included with approval documentation. For example,
         according to the “Request for Obligation of Official Representation Funds” on
4
    The 21 transactions involved 7 ORF events during FY 2005 and FY 2006.

                                                  12
    document number J00-H06-062, ORF gifts were purchased, along with a tour of
    the Iolani Palace between April 14, 2006, and April 25, 2006. The documentation
    did not specify whom the gifts and tour were purchased for or when the tour was
    to take place. CJCSI 7201.01A specifies that “records concerning the use of ORF
    will be maintained on an event-by-event basis to provide data on how and why
    these funds are used.” It further states, “records should document the purpose for
    which funds were used, including names, titles, and the organizations of the
    persons attending.” To ensure compliance with established procedures, PACOM
    personnel who are responsible for requesting obligations and expenditures for
    ORF events or gift purchases need to provide complete details regarding their use.


Control Environment
    PACOM internal controls for ORF were not adequate for the purchases we
    reviewed. The primary control deficiency resulted from the failure of PACOM
    personnel to request prior approval for expenditures and to ensure adequate fund
    availability. The request for obligation of funds prior to expenditure needs to
    include all supporting documentation, as outlined in both the CJCSI 7201.01A
    and the PACOM 0609.3 guidance related to the use of ORF. In addition,
    PACOM personnel need to adhere to current tax policy to ensure that purchases
    of tangible property made on behalf of the U.S. Government do not incur any tax
    charges. Finally, PACOM personnel need to take action to eliminate excessive
    inventory of gift items and institute procedures to prevent the future purchase of
    items unless a specific need is identified.


Recommendations and Management Comments
    B.1. We recommend that the Commander, Pacific Command Headquarters:

          a. Direct Official Representation Fund cardholders to obtain
    authorization and approval for obligation and expenditures prior to a
    scheduled event.

            Commander, U.S. Pacific Command Comments. The Commander,
    U.S. Pacific Command concurred with the recommendation. He stated that all
    Official Representation Funds managers have been briefed to obtain authorization
    and approval for obligation and expenditures prior to a scheduled event.

           b. Require all “Request for Obligation of Official Representation
    Funds” forms to include complete documentation and explanation for each
    event in accordance with the Chairman of the Joint Chiefs of Staff
    Instruction 7201.01A and Pacific Command Instruction 0609.3.

           Commander, U.S. Pacific Command Comments. The Commander,
    U.S. Pacific Command concurred with the recommendation. He stated that the
    “Request for Obligation of Official Representation Funds” forms will be revised
    to ensure complete documentation and explanation for each event.

                                        13
        c. Require all Official Representation Funds cardholders to identify
and make purchases of gifts to be given to distinguished visitors during the
fiscal year of the visit.

        Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation. He stated that every
effort will be made to expend present gifts during the current fiscal year and will
request a waiver from the Chairman of the Joint Chiefs of Staff if required.

        d. Request a waiver from the Chairman of the Joint Chiefs of Staff in
the event that gifts are required within the first month of the subsequent
fiscal year or there is a long lead time required for the gift purchase.

        Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation. He stated that a
waiver will be requested from the Chairman of the Joint Chiefs of Staff in the
event a gift purchase is required over fiscal years or in the event of a long lead
time for the purchase.

        e. Direct the Command Staff Protocol Office to use all gifts in its
inventory until the stockpile is depleted and prevent future stockpiling of
gifts by making purchases only as needed.

        Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation. He stated that the
Protocol Office is currently using its current stockpile of gifts and will purchase
gifts only as needed.

B.2. We recommend that the Command Staff Protocol Office ensure that all
applicable requirements of DoD Directive 7250.13 and Chairman of the Joint
Chiefs of Staff Instruction 7201.01A are met prior to approving official
representation events.

       Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation by stating that the
protocol office will adhere to the applicable requirements as stated in DoD
Directive 7250.13 and CJCSI 7210.01A.

B.3. We recommend that the Government Purchase Card approving official
for Official Representation Funds:

      a. Reject all purchases made without prior approval unless an
immediate, official need is documented due to an unannounced visit by an
authorized distinguished visitor.

       Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation. He stated that the
Comptroller’s staff will not accept any Official Representation Funds requests
without prior approval, unless an immediate “official” need is documented.



                                     14
      b. Ensure that cardholders are aware of and adhere to the tax-
exempt policy for the use of the government purchase card.

       Commander, U.S. Pacific Command Comments. The Commander,
U.S. Pacific Command concurred with the recommendation. He stated that even
though all Official Representation Funds cardholders were aware of the tax-
exempt policy, many local vendors would not honor the tax-exempt request.
Therefore, all cardholders have been advised to only utilize local vendors that
honor the tax-exempt policy.




                                   15
Appendix A. Scope and Methodology
   We requested PACOM purchase card transactions from the DoD Office of the
   Inspector General, Data Mining Directorate. They provided us with a universe of
   2,086 purchase card transactions valued at $3,233,031 made by 33 PACOM
   cardholders from June 1, 2005 through May 18, 2006. We used the indicators
   provided by the Data Mining Directorate to identify transactions that were
   high-risk based on dollar amount, date of purchase, vendor, and other indicators
   of possible Government Purchase Card misuse. Applying these indicators, we
   judgmentally selected 348 transactions with a total value of $1,268,600. The
   348 transactions were associated with 17 cardholders. Since the review was
   limited to a judgmental selection of transactions, we could not project our results
   over the entire population of purchase card transactions.

   We performed the audit at the U.S. Pacific Command Headquarters (PACOM) in
   Honolulu, Hawaii. Our objective was to evaluate the controls over the use of the
   Government Purchase Card program. We conducted interviews with PACOM
   management personnel, individual cardholders, and approving officials, and the
   Staff Judge Advocate. In addition, we contacted vendors to verify a limited
   number of transactions. We also obtained relevant supporting documentation,
   including credit card statements, invoices, training records, and other
   documentation maintained by PACOM. We reviewed DoD, Navy, and PACOM
   policies and regulations regarding responsibilities and procedures for the control
   and use of the Government Purchase Card, as well as guidance issued by the
   Chairman of the Joint Chiefs of Staff.

   We identified and reviewed 50 purchase card transactions associated with 23
   official representation events initiated by the Command Staff Protocol Office
   from June 27, 2005 to May 7, 2006. We also evaluated internal controls with
   respect to the Official Representation Funds to assess their effectiveness over the
   Government Purchase Card program.

   We performed this audit from November 2006 through July 2007 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We received computer-processed data for
   PACOM from the DoD Office of Inspector General, Data Mining Directorate.
   During the review, we established reliability by comparing the data to source
   documentation such as receipts, credit card statements, approval documents, and
   contractual documents. The comparison disclosed that data were sufficient to
   support the conclusions. However, we did not perform any formal reliability
   assessment of the computer-processed data.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of a DoD financial management high-risk area.




                                        16
Appendix B. Prior Coverage
      During the last 5 years, the GAO and the IG DoD have issued 14 reports
      discussing the DoD Government Purchase Card Program. Unrestricted
      Government Accountability Office reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
      Program Management but Actions Needed to Address Misuse,” December 2004

      Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
      Significant Savings on Purchase Card Buys,” March 2004

      Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
      Force Vulnerable to Fraud, Waste, and Abuse,” December 2002

      Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
      Abuse but is Taking Action to resolve Control Weaknesses,” September 2002

      Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
      Vulnerable to Fraud, Waste, and Abuse,” June 2002

      Report No. GAO-02-506T, “Purchase Cards: Continued Control Weaknesses
      Leave Two Navy Units Vulnerable to Fraud and Abuse,” March 2002

DoD Inspector General
      Report No. D-2006-124, “Management of the Purchase Card Program at the
      North American Aerospace Defense Command and United States Northern
      Command,” September 29, 2006

      Report No. D-2004-104, “Purchase Card Use and Contracting Action at the U.S.
      Army Corps of Engineers, Louisville District,” July 27, 2004

      Report no. D-2004-096, “Controls Over Purchase Cards at Naval Medical Center
      San Diego,” June 29, 2004

      Report No. D-2004-076-T, “How to Save the Taxpayer Money Through Prudent
      Use of the Purchase Card,” April 28, 2004

      Report No. D-2004-016, “Purchase Card Use at the space and Naval Warfare
      Systems Command, Information technology Center, New Orleans, Louisiana,”
      November 14, 2003


                                         17
Report No. D-2004-002, “Selected Purchase Card Transactions at Washington
Headquarters Services and Civilian Personnel Management Service,”
October 16, 2003

Report No. D-2003-109, “Summary Report on the Joint Review of Selected DoD
Purchase card Transactions,” June 27, 2003

Report No. D-002-075, “Controls Over the DoD Purchase Card Program,
March 29, 2002




                                 18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Combatant Command
Commander, U.S. Pacific Command Headquarters
Inspector General, U.S. Pacific Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform

                                          19
U.S. Pacific Command Comments




                    21
22
23
24
25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
John K. Issel
Clarence E. Knight III
William C. Blouvet
Ellen E. Kleiman-Redden
Karen M. Bennett
